                                                                                                        7




                                                NATIONAL
                                                 OFFICE OF SCIENCE
                                                           INSPECTOR
                                                                   FOUNDATION
                                                                     GENERAL

  z
   .                                              OFFICE OF INVESTIGATIONS

  4
  @
  -4

       ON o
                                          CLOSEOUT MEMORANDUM

 Case Number: I08030022                                                                 Page 1 of 1




         The Office of Investigations-Office of Inspector General (OIG) initiated an investigation
         based on information that an institution' might have misused NSF funds during an award.2 Our
         investigation did not substantiate that NSF funds had been misused. Accordingly, no further
         action is warranted and this case is closed.




          I
NSF OIG Form 2 (1 1/02)
